                         UNITED STATES DEPARTMENT OF EDUCATION
                                            OFFICE OF THE INSPECTOR GENERAL




                                                    December 15, 2004
                                                                                                   Control Number
                                                                                                   ED-OIG/A02-E0016

Jack Martin, Chief Financial Officer
Office of the Chief Financial Officer
U.S. Department of Education
400 Maryland Avenue, SW
Washington, DC 20202

Dear Mr. Martin:

This is our Final Audit Report entitled Puerto Rico Department of Education’s (PRDE) Repeated
Single Audit Findings. The objective of our audit was to identify to the U.S. Department of
Education (ED), repeated single audit findings not incorporated in the special conditions placed
on PRDE’s grants for fiscal year 2003-2004.

We determined that the following single audit repeated findings were not incorporated in the
special conditions that ED placed on PRDE’s grants for fiscal year 2003-2004. These findings
should be considered when placing special conditions on PRDE’s future grants:

   Property and Equipment
   Accounting Records
   Accounting Records of the Community Schools Administration
   Cash Management Test at the Public Schools Level

A draft of this report was provided to ED’s Office of the Chief Financial Officer (OCFO) for
comment. In its response, dated December 2, 2004, the OCFO agreed with our finding and
recommendations. The OCFO stated that it included the repeated single audit findings
mentioned in the report in the special conditions placed on PRDE for fiscal year 2004. We have
summarized OCFO’s comments after the finding and have included OCFO’s entire response as
an Attachment.
                                         BACKGROUND

On May 2002, ED designated PRDE a “high-risk grantee” under 34 C.F.R. § 80.12, making the
agency subject to special conditions in all Federal education programs it administers. In August
2002, ED placed special conditions on PRDE’s grants because of problems with PRDE’s fiscal
and program accountability. In September 2003, ED again placed special conditions on PRDE’s
grants to help ensure that awards were expended in accordance with applicable legal
requirements and with appropriate fiscal accountability measures, management practices, and
controls. The special conditions included the strengthening of PRDE’s Internal Audit Office,
reporting on liquidations and purpose of expenditures, implementing an appropriate procurement

                                 400 MARYLAND AVE. S.W., WASHINGTON, DC 20202-1510
                                                             www.ed.gov

           Our mission is to ensure equal access to education and to promote educational excellence throughout the nation.
Audit of PRDE’s Repeated                                                                Final Report 

Single Audit Findings                                                              ED-OIG/A02-E0016


system, and assuring that only Title I employees would be paid with Title I funds.

PRDE must comply with the audit requirements of the Single Audit Act. PRDE’s single audit
auditors must:

   Determine whether the financial statements are presented fairly in all material respects in
    conformity with generally accepted accounting principles;
   Determine whether the schedule of expenditures of Federal awards is presented fairly in all
    material respects in relation to the financial statements taken as a whole;
   Evaluate internal controls pertaining to the compliance requirements for each major program;
    and
   Determine whether the entity has complied with the provisions of laws, regulations, and
    contracts or grants pertaining to Federal awards that have a direct and material effect on each
    major program.

                                           AUDIT RESULTS

Our review of PRDE’s single audit repeated findings, disclosed that the findings related to
Property and Equipment, Accounting Records, Accounting Records of the Community Schools
Administration, and Cash Management were not incorporated in the special conditions ED
placed on PRDE’s grants for fiscal year 2003-2004. These repeated findings were the result of
inadequate completion of corrective action plans in response to PRDE’s single audit reports.
Additionally, ED had not closely monitored PRDE’s implementation of the corrective action
plans. As a result, ED could not ensure that PRDE adequately managed Federal funds.

Property and Equipment

Since 1998, PRDE’s controls over property and equipment acquired with ED funds have been
questioned in single audit reports. Recent OIG work has also revealed that PRDE did not
maintain required documentation related to property and equipment acquired with ED funds, and
did not perform a physical inventory of the property.1

The 2003 single audit report stated that PRDE’s Property and Equipment Division (the Property
Division) lacked internal controls over property and equipment acquired with Federal funds.
Specifically, the Property Division did not maintain an effective property and equipment system
that would support the preparation of a current and complete subsidiary ledger. Each item of
acquired property and equipment was recorded on a handwritten index card. The filing system
used to file these cards was inadequate because property and equipment items could not be easily
located. In addition, the Property Division had not established adequate procedures to ensure
that all property and equipment acquired under different Federal programs were recorded. Also,
there were no established procedures to update the property records when an item of property or
equipment was transferred from one location to another or was discarded. Furthermore, the
Property Division’s records did not identify the percentage of Federal participation in the cost of

1
 Puerto Rico Department of Education Did Not Administer Properly a $9,700,000 Contract With National School
Services of Puerto Rico (ED/OIG A01-A0004) identified that PRDE did not inventory materials, equipment, and
property purchased with ED funds under the subject contract.

                                                     2

Audit of PRDE’s Repeated                                                                         Final Report 

Single Audit Findings                                                                       ED-OIG/A02-E0016


property partially acquired with Federal funds, and a physical inventory was not performed at
least annually.

Total equipment purchased with ED funds during PRDE’s fiscal year 2002-2003, as recorded on
PRDE’s accounting records, totaled $17,668,823. This amount excludes equipment purchased
through the Community Schools Administration and the community schools. The actual amount
of funds transferred to the community schools for the acquisition of property and equipment was
not readily determinable because all transfers were recorded as miscellaneous transfers. During
fiscal year 2002-2003, Federal funds amounting to $71,024,932 were transferred to the
community schools to acquire, among other things, property and equipment. The same
deficiencies were also reported in the 2001 and 2002 single audit reports.

PRDE’s single audit auditors stated that there was a high incidence of equipment theft at PRDE.
The auditors explained that three laptop computers had been stolen from their office at PRDE.
When they filed a police report, they noticed that there were numerous cases of PRDE property
theft waiting to be resolved. In addition, the auditors stated that the majority of this equipment
was unaccounted for in PRDE’s inventory records. The auditors considered the property and
equipment issues to be a serious problem.

According to 34 C.F.R. § 80.32(b),2 a State will use, manage, and dispose of the equipment
acquired under a grant in accordance with State laws and procedures.

Section XII of Puerto Rico Treasury Department’s (Hacienda)3 Ruling #11: “Basic Guidelines
for the Control and Accounting of Fixed Assets” establishes that State agencies shall perform a
physical inventory on an annual basis of all the property under their jurisdiction. An officer not
in charge of the controls and accounting of the property should compare the results with the
property records. Differences should be reconciled and property records adjusted, as applicable.
In addition, it states that the inventory must specify the property number, the serial number, the
location of the property, description of the property, and the cost.

Also, 34 C.F.R. § 80.20(b)(3) establishes that effective control and accountability must be
maintained for all grant and subgrant cash, real and personal property, and other assets. Grantees
and subgrantees must adequately safeguard all such property and must assure that it is used
solely for authorized purposes.

Since 2000, PRDE has stated in its corrective action plans that it has been developing regulations
to improve its management of property. However, because the finding continues to appear in
subsequent single audit reports, adequate progress has not been made. The Property Division
must establish adequate procedures to ensure that all property and equipment acquired under
different Federal programs are recorded and properly accounted for.




2
    Unless otherwise specified, all regulatory citations are to the July 1, 2002 volume. 

3
    Hacienda is the State agency responsible for the administration and disbursement of Federal funds.


                                                            3

Audit of PRDE’s Repeated                                                                   Final Report 

Single Audit Findings                                                                 ED-OIG/A02-E0016


Accounting Records

The “Accounting Records” finding has been reported in PRDE’s single audit reports since 1991.
For the year ended June 30, 2003, the auditors noted that PRDE had inappropriate and/or
incomplete cut-off procedures, as well as incomplete month-end and year-end closing
procedures. Many transactions were posted months after the applicable closing, with a
retroactive effect. Also, the filing procedures followed by PRDE’s personnel and the lack of
communication and appropriate coordination did not permit the prompt retrieval of payments and
other requested documents. Additionally, various payment documents and other important data
were maintained and filed without any logical sequence. Furthermore, PRDE lacked an
automated mechanized payroll system to account for compensated absences.

The same deficiencies noted above were reported in the 2001 and 2002 single audit reports. The
2002 single audit also reported that the accounting procedures followed by PRDE did not
provide for the recording of expense adjustments related to amounts paid to suppliers and
employees. These adjustments were later determined to be inappropriate, overpaid, and/or
unallowable. Even though this deficiency was not reported in 2003, recent OIG audits have
found that accounting procedures used by PRDE to record payroll and other adjustments are
inappropriate and are the principal cause for lapsed funds.4

According to PRDE’s single audit auditors, Puerto Rico law does not require PRDE to maintain
reporting policies in accordance with generally accepted accounting principles, but it is highly
recommended. The auditors recommended that Hacienda establish a position regarding this
issue. Concerning the deficiencies associated with accounting procedures, the auditors stated
that the problems related to adjusting entries persisted and worsened every year. In addition, the
auditors contended that the continuation of posting expenditures late in the Puerto Rico
Integrated Financial Accounting System (PRIFAS),5 presented a problem because these
expenditures were misrepresented in PRDE’s accounting records.

Pursuant to 34 C.F.R. § 76.702, a State and a subgrantee shall use fiscal control and fund
accounting procedures that insure proper disbursement and accounting for Federal funds.

34 C.F.R. § 80.20(a) and (b)(1)-(2) establish that:

    a. 	 A State must expend and account for grant funds in accordance with State laws and
         procedures for expending and accounting for its own funds. Fiscal control and
         accounting procedures of the State, as well as those of its subgrantees and cost-type
         contractors, must be sufficient to:



4
  Puerto Rico Department of Education’s Special Education Expenditures for the period, July 1, 2002 to December

31, 2002 (ED/OIG A02-D0020) and Puerto Rico Department of Education’s Title I Expenditures for the period, 

July 1, 2002 to December 31, 2002 (ED/OIG A02-D0014) identified that PRDE’s recording of untimely adjusting

entries caused Title I and Special Education funds to lapse. 

5
  PRIFAS is Hacienda’s central accounting electronic system, implemented on July 1, 1998. 




                                                       4

Audit of PRDE’s Repeated                                                                      Final Report 

Single Audit Findings                                                                    ED-OIG/A02-E0016


                Permit preparation of reports required by this part and the statutes authorizing the
                 grant, and
                Permit the tracing of funds to a level of expenditures adequate to establish that
                 such funds have not been used in violation of the restrictions and prohibitions of
                 applicable statutes.

    b. 	 The financial management systems of other grantees and subgrantees must meet the
         following standards:

                Financial reporting - Accurate, current, and complete disclosure of the financial
                 results of financially assisted activities must be made in accordance with the
                 financial reporting requirements of the grant or subgrant.
                Accounting records - Grantees and subgrantees must maintain records that
                 adequately identify the source and application of funds provided for financially-
                 assisted activities. These records must contain information pertaining to grant or
                 subgrant awards and authorizations, obligations, unobligated balances, assets,
                 liabilities, outlays or expenditures, and income.

OMB Circular A-87, Attachment A (C)4a, states that applicable credits for receipts or reduction
of expenditure-type transactions that offset or reduce expense items allocable to Federal awards
as direct or indirect costs, shall be credited to the Federal award either as a cost reduction or cash
refund, as appropriate. Examples of such transactions are: purchase discounts, recoveries or
indemnities on losses, insurance refunds or rebates, and adjustments of overpayments or
erroneous charges.

PRDE stated in its response to the 2003 single audit report that it has been working with ED’s
Cooperative Audit Resolution and Oversight Initiative (CAROI)6 to revise the internal policies
and procedures to improve the controls and accountability over PRDE’s assets and funds.
However, the situation still persists because the finding continues to appear in single audit
reports.

Accounting Records of the Community Schools Administration

The “Accounting Records of the Community Schools Administration (CSA)” finding has been
reported in PRDE’s single audit reports since 2000. The public educational system of PRDE is
based on community schools with academic, fiscal, and administrative autonomy. The CSA is a
division at PRDE that acts as a pass-through entity that transfers State and Federal funds to the
community schools. Regarding the banking procedures of the CSA, after Federal funds are
deposited in a bank account with the Puerto Rico Government Development Bank (GDB), these
funds are then transferred to the CSA account at Santander Bank (Santander). Electronic
transfers are then made to the bank account of each community school. Each community school
makes the final disbursement of Federal funds. For the fiscal year ended June 30, 2003, PRDE
transferred $71,024,932 in Federal funds from the GDB account to the CSA account.


6
 CAROI is a collaborative method that provides alternative and creative approaches to resolve audit findings as well
as their underlying causes.

                                                         5

Audit of PRDE’s Repeated                                                          Final Report 

Single Audit Findings                                                        ED-OIG/A02-E0016


During the evaluation of the procedures followed by the CSA, it was noted that PRDE’s
accounting records did not provide for the accounting distribution of the funds actually disbursed
by the community schools. The amounts transferred to the CSA were recorded as transfers of
funds to the Special Disbursement Agent of the CSA, and did not identify the purpose of the
Federal funds. This condition prevented the auditors from determining compliance with
allowable cost principles, equipment and real property management, earmarking, and period of
availability.

The auditors also noted that the accounts at the GDB and Santander maintained balances at the
end of each month and earned interest. The interest earned at the GDB represents interest earned
on Federal programs. The Santander account is used to transfer State and Federal funds to each
community school’s account. Therefore, part of the interest earned at the Santander account also
represents interest earned on Federal programs. These same deficiencies were also noted in the
2001 and 2002 single audit reports.

The Puerto Rico Office of the Comptroller performed several audits of the CSA and reported
major exceptions and deficiencies related to internal controls and management of funds. These
audits included findings related to lack of segregation of duties, lack of accounting records, lack
of compliance with policies and procedures related to purchases with Federal funds, and
supporting documentation not available for examination.

The criteria relevant to this finding is the same criteria discussed in the previous “Accounting
Records” finding.

Since 2000, PRDE has stated in its corrective action plans that it is in the process of designing an
appropriate monitoring program. However, because the finding continues to appear in single
audit reports, more improvement is needed.

Cash Management Test at the Public Schools Level

The “Cash Management Test at the Public Schools Level” finding has been reported in PRDE’s
single audit since 2002. However, cash management issues have been reported in PRDE’s single
audit reports since 1991, depending on the program. The finding stated that PRDE did not have
a formally structured cash management system at the schools level to effectively manage the
timing between receipt of Federal funds and the ultimate disbursement of these funds. For the
fiscal year ended June 30, 2003, PRDE transferred $71,024,932 in Federal funds to the
community schools. The auditors visited 20 schools and tested 191 disbursements. They noted
179 instances of noncompliance with cash management requirements. The time elapsed from the
transfer date through the disbursement date ranged from 4 to 292 days. The transfer of these
funds was recorded as an expenditure in PRDE’s accounting records, but the funds accumulated
interest in the schools’ bank accounts until the funds were actually disbursed to suppliers. The
same deficiencies were also reported in the 2002 single audit report.

The regulations at 31 C.F.R. § 205.15(a), establish that a State will incur an interest liability to
the Federal Government if Federal funds are in a State account prior to the day the State pays out
funds for program purposes. A State interest liability will accrue from the day Federal funds are


                                                 6

Audit of PRDE’s Repeated                                                         Final Report 

Single Audit Findings                                                       ED-OIG/A02-E0016


credited to the State account to the day the State pays out the Federal funds for program
purposes.

According to 34 C.F.R. § 80.20(b)(7), procedures for minimizing the time elapsing between the
transfer of funds from the U.S. Treasury and disbursement by grantees and subgrantees must be
followed whenever advance payment procedures are used. In addition, the PRDE was not in
compliance with the "Users Guide for the Grant Administration and Payment System" issued by
ED, which requires that Federal funds must be expended within three business days after they are
available. Funds held for more than three days are considered excess cash and must be returned
to the Federal Government.

Since 2000, PRDE has been stating in its corrective action plans that it is trying to implement
some corrective actions to minimize these deficiencies. However, because the finding continues
to appear in single audit reports, inadequate progress has been made.

Recommendations

We recommend that the Chief Financial Officer:

1.1 	   Consider the deficient areas discussed above when placing special conditions on PRDE’s
        grants; and
1.2 	   Closely monitor PRDE’s implementation of the corrective action plans presented to ED
        on prior single audit reports.

OCFO’s response

In its response, the OCFO agreed with our finding and recommendations. The OCFO stated that
it had included the repeated single audit findings mentioned in the report in the special
conditions placed on PRDE for fiscal year 2004. Specifically, the special conditions included a
requirement that PRDE prepare corrective action plans in the four areas referenced in this audit
report and submit these plans to ED by February 15, 2005. Also, the OCFO stated that ED
would closely monitor PRDE’s implementation of corrective action plans presented to ED in
response to prior single audit reports.

OIG’s reply

We reviewed OCFO’s response and determined that it fully addressed our finding and
recommendations.

                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to identify to ED repeated single audit findings not incorporated
in the special conditions placed on PRDE’s grants for fiscal year 2003-2004.

To achieve the audit objective, we interviewed PRDE’s single audit auditors. We also reviewed
the workpapers and audit reports issued by PRDE’s single audit auditors for the years 2001
through 2003. To select the repeated findings for analysis, we reviewed the 2003 single audit

                                                7

Audit of PRDE’s Repeated                                                         Final Report 

Single Audit Findings                                                       ED-OIG/A02-E0016


schedule of prior year audit findings and reviewed all 11 repeated findings that had not been 

corrected by PRDE or considered by ED for the special conditions placed on PRDE's current 

grants. 


The scope of the audit included repeated findings in the single audit report for the year ended 

June 30, 2003, not included in the special conditions ED placed on PRDE’s current grants. 

We performed our fieldwork at the single audit auditor’s worksite, located within PRDE in Hato 

Rey, Puerto Rico from May 5, 2004, through July 28, 2004, the date of our exit conference. 


We did not rely on any computer-processed data for any conclusions reached during this audit. 


Our audit was performed in accordance with generally accepted government auditing standards 

appropriate to the scope of the review described above. 


                         STATEMENT ON INTERNAL CONTROL

As part of this audit, we did not assess the adequacy of internal control applicable to PRDE
or ED’s Office of the Chief Financial Officer because our work was limited to an informational
review of PRDE’s repeated single audit findings.

                               ADMINISTRATIVE MATTERS

Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department’s Audit Accountability and Resolution
Tracking System (AARTS). ED policy requires that you develop a final corrective action plan
(CAP) for our review in the automated system within 30 days of the issuance of this report. The
CAP should set forth the specific action items, and targeted completion dates, necessary to
implement final corrective actions on the finding and recommendations contained in this final
audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and the general public to the
extent information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
call Daniel P. Schultz, Regional Inspector General for Audit, at (212) 637-6271.

                                             Sincerely,

                                               /s/

                                             Helen Lew
                                             Assistant Inspector General for Audit

                                                8

Audit of PRDE’s Repeated                                                                                                          Final Report 

Single Audit Findings                                                                                                        ED-OIG/A02-E0016


                                                                 Attachment




                                         UNITED STATES DEPARTMENT OF EDUCATION
                                                     OFFIe}; OF THE CHIEF FINANCIAL OFFICER

                                                                                                         TIlE CIllEF FlNANCIAL OFFICER
                                                                   DEC - 2       a
              !VIr. Daniel P. Schultz
              RegIOnal Inspector General
              Office of Inspector General (OIG)
              LT. S. Departm~nt of Education
               75 Park Place
               12th Floor
              New York, 'fY 10007

              Dear !VIr. Schultz:

              This letter responds to the OIG- draft audit report, "Puerto Rico Department of Education's
              (PRDE) Repeated Single Audit Findings," Control Number ED-OIG/A02-EOOI6, dated October
              6, 2004. In that report, OIG detennined that repeated single audit findings for the PRDE were not
              incorporated 10 the special conditions placed on PRDE's grants for fiscal year 2003-2004. These
              repeated findings were in the following areas: property and equipment, accounting records,
              accounting records of the Community School Administration, amI cash management test at the
              public schools level.

              The Office of the Chief Financial Officer shares your concerns regardmg the issues identified in
              your draft audit report, and has confinned that the Department has taken action to address the
              audit's findings and suggestions. We are pleased to infonn you that the FY 2004 special
              conditions for PRDE specIfically address the above referenced repeated smgle audit findings. An
              August 2, 2004 letter to PRDE's Secretary of Education Irom c. Todd Jones, Associate Deputy
              Secretary for the Budget and Strategic AccountabIlity, transmitted the FY 2004 PRDE special
              condItIons. Included in that transmlttal!s a reqUlrement (see enclosed, sectIOn 11.A.2) that PRLJE
              prepare corrective action plans in the four above referenced areas "that have been the subject of a
              number of findings in audits under the Single Audit Act" and submit these plans to the
              Department by february 15,2005. The Department will closely monitor PRDE's compliance
              with these special conditions, and will closely monitor PRDE's implementation of corrective
              action plans presented to the Department in response to prior single audit reports.

              We thank you for your continuing assistance in ensuring that the Department's funds are spent
              properly and for the purposes for which they were intended. Blanca Rosa Rodriguez of the
              Grants Policy and Oversight Staff (GPOS) will be happy to address any further questions you
              have or assist in any matter discussed in this response.

                                                                    Sincerely.




               Enclosure




                                              400 MARYLA:-lD AVE .. S.W.   WASHINGTON. D.C. 20202 4300

                 Our mission   IS to   ensure equal access to educatIOn and to promote educational excellence througnour the Nation.
Audit of PRDE’s Repeated                                          Final Report 

Single Audit Findings                                        ED-OIG/A02-E0016


                                                Attachment




              Daniel Schultz - Page 2




              Electronic Distribution to:
                      C. Todd Jones, OUS
                      Raymond Joseph Simon. OESE
                      Troy R. Justesen, OSERS
                      Susan Sclafam, OVAE
                      Sally L. Stroup, OPE
                      Deborah Price, OSDFS
                      Maria Hernandez Ferner, OELA
                      Nina Shakraii Rces, OIl
                      Phil Maestri, OUS
                      Phil Rosenfelt, OGC
                      Harold Jenkins, OGC
                      Susan Craig, aGC
                      Bill McCabe, OCFO
                      Karl Lahring, OGC
                      Ron Petracca. OGe
                      Kamina Pmder, OGe
                      Tina Otter, OUS
Audit of PRDE’s Repeated                                                                                                                     Final Report 

Single Audit Findings                                                                                                                   ED-OIG/A02-E0016


                                                                   Attachment




                                        UNITED STATES DEPARTMENT OF EDUCATION
                                                           OFFICE OF THE DEPUTI SECRETARY


                                                                      August 2, 2004


                Honorable Cesar Rey Hernandez
                Secretary of Education
                Puerto Rico Department of Education
                Post Office Box 190759
                San Juan, Puerto Rico 00919-0759

                Dear Secretary Rey:

                We appreciate the cooperation and the progress that the representatives of our two
                agencies have been making on grant management and accountability issues that your
                agency has been facing with regard to the administration of Federal education grants.
                Among the issues we have been discussing are the special conditions that would be
                attached to the Department grants to be made to the Puerto Rico Department of Education
                (PRDE) because of its status as a "high-risk grantee" under 34 C.F.R. §80.12. We
                appreciate the suggestions you and your representatives made on the special conditions,
                and we can assure you that we have fully considered them and mc1uded those suggestIOns
                wherever possible. Enclosed are the special conditions that will be incorporated in the
                grant awards that will be made by this Department to PRDE for all of the Federal
                education programs it administers.

                You will note that much emphasis is given in the special conditions to the corrective
                action plans your agency is continuing to work on. It is essential that these plans fully
                address the problems cited in audit findings in the subject areas covered by the plans. We
                look forward to receiving the plans in final form and seeing the progress your agency will
                make in implementing the plans, and in addressing all of the special conditions.

                We know that we take seriously our mutual responsibilities to ensure that Federal
                program funds are being spenl properly to assist students. and we look forward to
                continuing to work with you to improve the dell very of Federal education services so that
                no child in Puerto Rico is left behind.


                                                                                Sincerely,
                                                                               ~~                      ..       ~

                                                                                Assoclate Deputy Secretary for
                                                                                Budget and Strategic AccountabilIty

                Enclosure


                                                 400 MARYLAND AVE, SW. WASHINGTON, D,C. '20202-0500
                                                                           www,ed.gov

                      Our m.s"ion is In ens,,,.... qu.al   ~=   to education and to promote edurotional exceUence throughout 1M Nminn
Audit of PRDE’s Repeated                                                                                            Final Report 

Single Audit Findings                                                                                          ED-OIG/A02-E0016


                                                         Attachment




                         Commonwealth of Puerto Rico Department of Education             Special Conditions

             PREAMBLE: These special conditions are imposed on the Puerto Rico Department of Education's
             (PRDE's) program grants made available by the Department on or after the date of these special conditions,
             and will affect other funds under all other grants still available for obligation by PRDE. These program
             grant awards from the U.S. Department of Education (Department) to the PRDE are made in accordance
             with the Depanment', regulations governing "high risk" grantces in 34 CPR §80.12. The special conditions
             arC'. imposed to help ensure that the PRDE awards are expended in accordance with applicable legal
             requirements and with appropriate fiscal accountability measures and management practices and controls.

                     EXPLANATION OF HIGH·RISK STATUS

             Under the authority of the Education Depaltment General Administration Regulations (EDGAR), 34 CFR
             §80.12. the Depanment has determined that PRDE is a "high-risk" grantee for purposes of these grant
             awards because of problems in PRDE's fiscal and program accountability and related areas. Our
             conclusion I!' based on the following:

             A. The Depanmcnt, in prc:vious communications, has identified many compliance issues with PRDE's
                administration of Federal education grants. These problems with lack of proper accountability controls
                have resulted in many audit findings under the Single Audit Act and in audits done by the Department's
                Office of Inspector General. and resulted in the conviction of the former Secretary of Education and
                other colleagues. Puerto Rico is currently working on corrective action plans for payroll, grants
                management. and procurement to address problems of accountability that have affected PRDE's efforts
                to administer Federal education programs for a number of years. Some corrective actions are currently
                being implemented. but much work needs to be done by PRDE to fully address these issues.

              B. While PRDE has submitted more timely single audits, the audits contain many findings that show a
                 continuation of certain problems. For example, significant problems have been identified with the
                 community schools and the unallowable payment of employees' salaries using Title I and other Federal
                 program accounts. All of these significant problems raise concerns about Puerto Rico's ability co
                 deliver quality education services to its students with Federal education funds.

              II.    SPECIAL CONDITIONS

              A Reporting Requirements

              1. PRDE shall prepare its clJIrective action plans in final form in the three areas named in Section I-A
              above by September 15, 2004, and each of the plans shall indicate specifically how the actions to be taken
              by PRDE in accordance with these plans will correct the underlying problems found in audit findings in
              these areas. Based on the plans, the Department will consider modifications to the special conditions and
              whether any other administrative actions shou1d be taken. PRDE shall report to the Department for the first
              quarter ending 011 October 30, 2004, and every three months thereafter, on the progress PRDE is making in
              implementing the action steps in its action plans

              2. PRDE shall prepare cQrrective action plans in an additional fOUl"" areas that have the subject of a numoer
              of findings in audits under the Single Audit Act-property and equipment management, weaknesses in
              accounting records generally. weaknesses in accounting records with regard to community schools
              administration. and cash management at the schoollevel··and submit them to the Department by February
              15,2005. Each of the plans shall indicate specifically how the actions to be taken by PRDE in accordance
              with these plans will correct the underlying problems found in audit findings in these areas. Rased on these
              plans. the Department will consider modifications to the special conditions and whether any other
              administrative actions shuuld be taken. PRDE shall report to the Department for the quaner endlOg on
Audit of PRDE’s Repeated                                                                                            Final Report 

Single Audit Findings                                                                                          ED-OIG/A02-E0016


                                                          Attachment




            April 30, 200S, and quarterly thereafter, on the progress PRDE is making in implementing the action steps
            in its action plans.

            3. The quarterly report will also include progress repons. on each of the major programs being implemented
            by PRDE that is funded by Department funds. The Department may identify other programs to be covered
            in a quarterly report. The submission of the written reports shall be preceded by a meeting or conference
            call between representatives of PRDE and the Department within two weeks of the end of the quarter, to
            discuss PRDE's progress and what level of detail and subjects the Department wants PRDE to cover in its
            written quarterly report. PRDE must then submit each quarterly report within four weeks after the call or
            meeting. The Puerto Rico Secretary of Education or other authorized official of PRDE shall certify the
            completeness and accuracy of the reports. The Internal Audit Office shall verify the accuracy of the reports
             and audit the implementation of the action steps in the Action Plans and issue a report to PRDE and the
             Department by June 30, 2005.

            B. Internal Audit Office and Audit and Financial Oversight Committee

            All Department grant recipients are required to provide assurances that grant funds are being spent
            according to program and legislative requirements. The Departmenl relies on these assurances to approve
            grant application~. The Department recognizes that the successful implementation ofPRDE's initiative to
            strengthen the PRDE Internal Audit Office and the establishment of an independent Audit Oversight
            Committee will help PRDE provide the needed assurances. As part of the quarterly reports required under
            these special conditions, PRDE shall provide the Department confirmation ofPRDE's progress on fully
            staffing and training its [nternal Audit Office, and on the activities of the independent Audit Oversight
             Corrunittee

             C. Prompt Access to Records

             PRDE shall promptly provide the Department or its representative!> any requested records and infonnation.


             D. Failure to Comply with Conditions

             If a plan, report or documentation under Section 11. A, B, and C above, is not provided by PRDE on a
             timely basis or is not considered acceptable to the Department (for example, it docs not show substantial
             promi~e of correcting the problems found in the audits), it may be considered as a failure to comply with the
             special condltions and be subject to the remedies outlined below or to the terms in Section III A below. If
             the Department determines that the PRDE has not made substantial progress in meeting the objectives of
             the program. or has not met program requirements or the special conditions contained in Section II, A, B.
             and C. the Department may consider not continuing the grants or taking further enforcement action steps, or
             apply additional conditions such as the following:

                  1.   PRDE would receive no further funds under onc or more grant awards or would receive funds only
                       on a reimbursement basis;

                  2.   The Department would impose further conditions;

                  3.   The Department would seek the recovery of misspent funds; and

                  4.   PRDE would be required to contract (on a cOll1petitive basis) with a third party. who must be
                       approved hy the Department. to provide the services or financial management under a grant award
                       or ,twnrds. Tht: third party would, at a minimum. assist in preparing the vouchers to be submitted to


                                                                     2
Audit of PRDE’s Repeated                                                                                            Final Report 

Single Audit Findings                                                                                          ED-OIG/A02-E0016


                                                         Attachment




                    the Department for reirnbur:sement, and would verify their accuracy and tegitimacy as an
                    appropriate expenditure under a grant award or awards.


            III. OTHER TERMS

             A.   Enforcement

            1f PRDE fails to meet any of the above special conditions. the Department is authorized to take other
            appropriate enforcement action. These terms and conditions do not preclude the Department from taking
            any otherwise authorized enforcement or other actions at Hny time.

             B.   Submission of Reports

             All reports, that are required to be submitted by PRDE to the Department under these special conditions,
             shall be submitted to·

             Mark Rohinson
             400 Maryland Avenue, SW
             FB-6, Room 4E108
             Washington, lJC 20202

             C    Reconsideration and Modificatiol1~

             At any time, PRDE may request reconsideration of the above special conditions by contacting the
             Department and stating reasons why PRDE believes particular conditions are no longer needed.
             Additionally, the Department may impose additional special condltions or modify these special condition'S
             as approprLate. The Department will remove the special conditions at such time as PRDE meets. to the
             Department's satisfaction, the conditions mentioned above.



             Dated: _ _ _ _ _ _ __




                                                                   3
